r.IIJRY TRIAL REQUESTED!

Case No. 20-337

IN THE
UNITED STATES SUPREME COURT

ROSEMARY ANN LYNN,
Petitioner,
Against,

ANDREW GEORGE BROWN III, ET AL.,
(U.S. Dist. Ct. Case Nos. 19-CV-331-CVE-JFJ and I9-CV-332-CVE-JFJ, Respectively.)
(USCA10 Cir. Nos. 19-2062 and 19-5063 Respectively.)
Respondents.

PETITTION FOR REHEARING, REHEARING ENBANC, AND REQUESTS FOR ANSWER
TO ISSUES RAISED ON PETITION FOR WRIT OF CERTIORARI

ROSEMARY ANN LYNN
P.O. Box 701432
Tulsa, Oklahoma 75170

TABLE OF CONTENTS

INTRODUCTION

3

QUESTIONS PRESENTED

2

LEGAL ARGUMENT AND AUTHORITIES

A

PROBATE COURT LACKED APPROVAL AUTHORITY
OVER DISCLAIMER........................................................

.4

RESPONDENT ANDREW GEORGE BROWN III,
LACKED STANDING AND INJURY-IN-FACT

6

OKLAHOMA'S TWO MOST RECENT STATEMENTS OF STATE
LAW PLAINTIFF'S INABILITY TO CONTEST THE CREATION
AND EXECUTION OF TRUSTS OUTSIDE OKLAHOMA
TRUST ACT AND FAILURE TO SERVE PROCESS..........................................................

7

REASONS FOR GRANTING REHEARING, REHEARING ENBANC, AND ANSWERS

9

DISTRICT COURT DISMISSED LYNN'S DEFAMATION
COMPLAINT AND CIVIL RICO COMPLAINT WITHOUT
PRIOR NOTICE WITHIN HOURS AFTER THE COURT
OPENED ITS DOORS FOR BUSINESS...............................

9

RESPONDENTS ADMISSION TO THIS COURT THEY
FAILED TO COMPLY WITH OKLAHOMA PLEADING CODE
12 O.S. 2014, Sec. 2004(1) IS DISPOSITIVE ON THEE ISSUE
OF DEFECTIVE SERVICE OF PROCESS ON LYNN................

10

EVENTS LEADING UP TO EXTRINSIC FRAUD ON
THE PROBATE COURT, CIVIL THEFT, AND INTRINSIC
FRAUD ON ROSEMARY ANN LYNN...............................

11

CONCLUSION

12

SEPARATE PAGE FOR COMPLIANCE
SEPARATE PAGE FOR PROOF OF SERVICE
SEPARATE AMENDED APPENDIX (Original Appendix reference here and incorporated as if
included).

ii
AUTHORITIES
Page(s)

Cases

9

Calhoon v. Oakes, 2016 Ok Civ App 61
Camey, Governor Of Delaware v. Adams, 922 F.3d 166

13
8,9

Cole v. Josey, 2019 OK 39
Erie R. Co. v. Tompkins, 304 U.S. 64

12

Lujan v. Defenders Of Wildlife, 504 U.S. 555, 560

13

Murray County v. Homesales, Inc., 2014 OK 52,

17, 330 P.3d 519

6

Perry On Trusts, Vol. 1, § 24

9

Randall v. Travelers Cas. & Sur. Co., 2006 OK 65, 145 P.3d 1048

7

Smith v. Lopp, 2020 OK 24

6, 7, 12

Federal Rules of Civil Procedures
Fed. Rules 8(a) and 9

1,2

Fed. R. 15(a)

,2

Fed. R. 4(m)

9

28U.S.C. §636

10

Fed. R. 69(a), 81(b)

12

28 U.S.C. §723

12

Oklahoma Statutes
84 O.S. §§22-26

4

84 O.S. §213(B)(2)(c)

4

84 O.S. §2518

A

60 O.S. 2014, § 175.23(C)

6,8

ii
(Authorities Continued)
12(b)(1)
12 O.S. § 2004(1)
12 O.S. § 2012(G)
12(b)(6)

10, 13
9, 12
9
13

Case No. 20-337

r.TIIRY TRIAL REQUESTED)

IN THE
UNITED STATES SUPREME COURT

ROSEMARY ANN LYNN,
Petitioner,
Against,

ANDREW GEORGE BROWN III, ET AL.,
(U.S. Dist. Ct. Case Nos. 19-CV-331-CVE-JFJ and 19-CV-332-CVE-JFJ, Respectively.)
(USCA10 Cir. Nos. 19-2062 and 19-5063 Respectively.)
Respondents.

PETITTION FOR REHEARING, REHEARING ENBANC, AND REQUESTS FOR ANSWER
TO ISSUES RAISED ON PETITION FOR WRIT OF CERTIORARI

Pursuant to Fed. R. Civ. P. 44 (“FRCP” 44), Petitioner Rosemary Ann Lynn (“Petitioner” or
“Lynn”), respectfully petitions this Court for an order (1) granting Rehearing and Rehearing Enbanc
and provide Answers to the issues raised by petitioner pursuant to Rule 40 et seq., (2) vacating the
Court's order on November 16, 2020 denying petition for writ of certiorari, and (3) re-disposing of this
case by granting the petition for writ of certiorari, vacating the orders entered in Case Nos. PG-2017800 and PB-2020-177 In re: Matter of Guardianship ofAudrey Louise Brown,7 vacating the judgment,
and remanding to the Tenth Circuit for further consideration for purposes of consideration whether the
district court abused its authority by overextending the doctrine of sua sponte, plain error, and whether
the district failed to comply with Rules 8(a) and 9.
Rosemary Ann Lynn, submits that on the day this court denied her petition for writ of certiorari,
V. As a result of the Brown's bearing the same last name, Andrew George Brown III, will be referred to
as Mr. Brown and Audrey Louise Brown will be referred to as ALB, respectfully.
1

pending before this Court: (1) Petitioner's Reply To Respondents Opposition Brief, (2) Motion To
Disqualify Attorney Randall Allen Gill Due To Substantial Conflicts of Interest, and (3) Memorandum
of Points and Authorities In Support of Disqualification.
Petitioner seeks rehearing, rehearing enbanc, and answers in addition to the pending motions
timely filed and seeks the following answers by this Court regarding:

(1) Whether civil RICO

Complaints require a higher initial pleading standard than what Rule 8(a) plain and simple statement of
facts require; (2) Whether failure to substantially compliance and mandated service of summons and
petition is jurisdictional and dispositive; (3) Whether civil RICO statutes mandate complete diversity
of citizenship in order for District Court to have RICO diversity jurisdiction; (4) Whether the forfeiture
or in terrorem clause was triggered by Mr. Brown's challenges to ALB's legal and mental health and the
creation and execution of her estate plans. (5) Whether Mr. Brown's disclaimer irrevocably remove all
alleged interests in ALB's trust estate. (6) Whether Mr. Brown's failure to advise guardianship court of
his conflicts transactions “undermine” the guardianship court by further undisclosed “conflicts of
interests” thereby negate his disclaim when done for fraudulent conveyance.
Indeed, rehearing should be granted for determination whether petitioners civil RICO
Complaint and Defamation Complaint claims were properly alleged in the “initial” filing under Fed. R.
8(a) and 9, if so, rehearing is warranted by this court to at least review and discuss the complaints and
their compliance with filing requirements of Fed. R. 8(a) and 9 (particularity) that would have barred
dismissal, thereby requiring notice, show cause, and opportunity to amend (first time without leave of
court before dismissal) under Fed. R. 15(a).
As grounds for this petition for rehearing, rehearing enbanc, and answers to issues raised,
petitioner states the following “Grave Miscarriage of Justice Issues will be repeated if not addressed
and hundreds of thousands of Oklahoman's will continue to be victims of respondents racketeering
activities and subduing in the probate court without adequate relief :
2

I.
INTRODUCTION
Andrew George Brown III, sister Audrey Louise Brown (hereinafter, “ALB”) chocked to death
on food and particle over filling her lungs at Brookdale Assisted Living Nursing Home (Brookdale) in
Broken Arrow, Oklahoma on July 22, 2019. Mr. Brown was infatuated with the notion that ALB s
private estate held solely in her name would be gifted to him and his children Amy Brown-Rea and
Matthew Brown. His infatuation and incurable belief proved to be wrong. ALB disinherited Mr. Brown
and all of his children.
ALB informed Mr. Brown several times in September and October 2017 that she had
disinherited him and his children from her estate, and that she had delivered her estate plans to Lynn.
In mid October, 2017 Mr. Brown and Mr. Gill et al approached Trust Company of Oklahoma
(“TCO”) whom Mr. Gill, Owens, Schultz knew very well from other dealings got Mr. Brown to agree
to “Loan” TCO $100,000.00 dollars (TCO is held by America TrustCorp, an $11 Billion dollar
enterprise, so what was the loan for? “It was a bribe to appear in court to testify against ALB's ability to
manage her financial affairs.”). [] Mr. Brown was not a depositor at TCO and had no financial
relationship with TCO. TCO and Mr. Brown executed a promissory note for the $100,000.00 agreeing
to pay Mr. Brown 5% for the 30-day loan.
On 10/26/2017 a black man and black woman appeared at ALB's home and forced their way in,
the black man identified himself as officer Clark Everett Williams (Mr. Wiliams”) and said he was a
Tulsa Police Officer and the black lady said her name was Ms. Helen Holmes-Latimer (“Latimer”)
from Oklahoma Department of Adult Protective Services.
ALB believed them and they forced ALB to sign three pieces of blank paper or they would
transport her to a state ran nursing home. ALB ask to call Lynn and was told to shut up, she could not
call Lynn. Out of fear, duress, and undue influence and threat of being forced from her home, ALB
3

signed the three pieces of blank paper.
FACTS: Mr. Williams was an attorney hired by Brown and Mr. Gill. Ms. Latimer worked for
Osage Juvenile System as a Juvenile Family Counselor, hired by Mr. Brown and Mr. Gill. They were
hired to falsely impersonate City and State Officials with authority. Authority they didnt have, but
ALB did not know it at the time they forced her to sign.
After freezing ALB's accounts, on 11/02/2017 Mr. Brown and Mr. Gill filed a false emergency
petition for guardianship and conservatorship over ALB and her estate. On 11/03/2017, Mr. Brown, Mr.
Gill et al appeared for an exparte mini hearing without notice to ALB or Lynn. Judge Bitting signed an
order prepared by Mr. Gill to remove ALB from her home and place ALB in Brookdale Nursing Home.
PROBATE COURT LACKED APPROVAL AUTHORITY OVER DISCLAIMER AND
LACKED JURISDICTION
Mr. Brown filed a disclaimer on February 21, 2020. See Amended Appendix (“Amd. App”)
App-1-2, Disclaimer Of Interest In Estate Pursuant to 84 O.S. §§ 22-26. In paragraph (Para.) 2, Mr.
Brown erroneously alleges that: Pursuant to 84 O.S. § 213(B)(2)(c), Andrew G. Brown III
(“Disclaimant”) is the sole beneficiary of the rest, residue, and remainder of the decedent's estate.
Para. 3, however, states the dispositive position of Mr.. Brown's frivolous claim of ownership in
ALB's estate. Disclaimant desires to disclaim all of his rights in the assets of the estate of Audrey
Louise Brown. This is instructive because, if an interest in property is disclaimed, “the disclaimed
interest passes as if the disclaimant had “died" immediately before the time of distribution. Mr.
Brown's disclaiming property that wasn’t his in the first place is underpinned by what disclaim means.
To “disclaim” means to refuse to accept an interest in property. Furthermore, Mr. Brown's
disclaiming property that didn't belong to him is self-serving; his alleged interest in ALB's estate and
all accounts thereunder, becomes property of ALB's estate when he disclaimed , to be distributed
pursuant to the terms and conditions of ALB's irrevocable spendthrift trust rather than routing the assets
4

through Trust Company of Oklahoma.
Mr. Brown's disclaimer states that he irrevocably, completely and unqualifiedly disclaim,
renounce, decline and “refuse” to accept his rights to, benefits of or interest in the estate of Audrey
Louise Brown. The Undersigned “intends” for this Disclaimer to be a qualified disclaimer pursuant to
§ 2518... “This Disclaimer shall also apply to all financial accounts held at The Trust Company of
Oklahoma, Tulsa, Oklahoma in the name of Audrey Louise Brown and the Estate of Audrey Louise
Brown. Dated this 18 day of February, 2020 signed Andrew G. Brown III.
Para. 4, exposes Mr. Brown's original intent in filing the false emergency petition for
guardianship & conservatorship, to wit: Disclaimer acknowledges that by signing this Disclaimer, his
rights to the Estate of Audrey Louise Brown will be distributed equally between Matthew A. Brown
and Amy E. Rea ... It is clear, Mr. Brown's sole motivation behind Mr. Gill's frivolous petition was to
revert ALB's estate to Mr. Brown's disinherited children through fraudulent conveyance and civil theft.
Mr. Brown through fraud attempted to move ALB's funds into an account he established at TCO
to benefit his children. On February 21, 2020 Mr. Brown executes a Consent To Appointment Of
Personal Representative appointing Kimberly Schutz as personal representative of the estate of Audrey
Louise Brown. Amd. App-4. On March 2, 2020 Schutz filed an Application To Waive Inventory Of
Personal Representative. Para. 1. Schutz claimed that the only asset in the probate is a Trust created
during the lifetime by the Court ...The Trust was created to protect Decedent's assets. Amd. App-2.
March 02, 2020 Order Waving Inventory Of Personal Representative, Kimberly Schutz. Amd. App-5.
Schutz continued “conflicts of interest”: On 11/03/2017 Schutz was appointed by the probate
court as a friend of the court to investigate ALB's status and interview all parties associated therewith.
Lynn was never interviewed by Schutz. On 11/27/2017 Schutz convinced the probate court to appoint
her as guardian ad litem for ALB at $200.00 per hour over objections from Rebecca Wood-Hunter.
Now, Schutz wears two hats in conflict with each other. For a third time, Schutz received Letters Of
5

Administration on March 02, 2017 as the personal representative of the estate of Audrey Louise Brown.
Amd. App-6.
The Affidavit Of Mailing dated March 09, 2020 and before is negative of any service to Lynn.
Amd. App-7.

Failure to serve Lynn created a jurisdictional defect and the probate court (Judge

Glassco) lacked personal and subject matter jurisdiction.
Mr. Brown's disclaimer did not authorize him to redirect ALB's assets to his children and he
lacked authority to do so under title 60 O.S. 2014, § 175.23(C) and Smith v. Lopp, 2020 OK 24. Mr.
Brown failed to disclose his intent in the guardianship & conservatorship court before Judge Bitting.
RESPONDENT ANDREW G. BROWN III. LACKED STANDING AND INJURY-IN-FACT
Under Oklahoma law, standing is the right to commence litigation, to take steps that frames
legal issues for ultimate adjudication by a court or jury. In Murray County v. Homesales, Inc., 2014 OK
52, U 17, 330 P.3d 519 the court held that the doctrine identifies those disputes that are appropriately
resolved through the judicial process.
Mr. Brown did not suffer an injury-in-fact; he did not suffer an injury at all, and Mr. Brown
lacked standing to initiate the guardianship & conservatorship action to contest the creation and
execution of ALB's trust agreement, and failed to meet the minimum criteria necessary to invoke the
general jurisdiction of the probate court i.e., perfect service of process on Lynn, ALB's appointed
administrator of the trust. Mr. Brown had no protected interest in ALB's private estate held in her name.
ALB did not designate Mr. Brown as an heir in her trust. Mr. Brown lacked any defined interest
and standing in ALB's trust. He lacks standing on all four comers of this case.
ALB intentionally disinherited Mr. Brown and his children Amy Brown-Rea and Matthew
Brown from her estate.

As pointed out in Professor Kelly A. James mental health competency

evaluation report dated 10/15/2017, Quote! You informed me that you have ensured that all of your
needs will be met by appointing Rosemary Lynn as your power of attorney. You gave Rosemary Lynn
6

authority over your medical care, and signed an advanced directive for end of life care. Additionally,
you established and irrevocable trust, so that your money is directed where you choose and Rosemary
Lynn was appointed as the trustee of the irrevocable trust.
OKLAHOMA’S TWO MOST RECENT STATEMENT OF STATE LAW PLAINTIFF'S
INABILITY TO CONTEST THE CREATION AND EXECUTION OF TRUSTS OUTSIDE
OKLAHOMA TRUST ACT AND FAILURE TO SERVE PROCESS
In Smith v. Lopp, 2020 Ok Civ App 24, (decided June 17, 2020) the plaintiff [Smith] asserted
Sharon A. Smith [SAS] lacked the capacity ... to understand and consent to the creation and execution
of the Trust, POA, and Will,” and therefore “requested the Court to set aside the Trust, POA and Will
on the grounds of incapacity[.]” In particular, the plaintiff asserted that “[Ms.] Lopp had SAS execute
the Will, POA and documents purporting to create the Trust.” Similar assertions made by Mr. Brown.
In the motion to dismiss, Defendants stated in relevant parts that [SAS] executed estate planning
documents created for her by the law firm of Postic & Bates, P.C., thereby establishing the [SAS]
Living Trust... and naming her daughter, [Ms. Lopp,] as Trustee for the Living Trust,” and while at the
Postic and Bates law office [SAS] also executed her Last Will and Testament, POA, and Proxy and
Nomination of Guardians.... (Attorney Barteaux of Fry & Elder Law Firm create ALB s POA and
Proxy POA. Mr. Barteaux examined ALB regarding her understanding and the effects of creating and
executing the estate plans and found ALB legally and mentally competent. He ask ALB who she
appointed over her estate and she said she appoint Lynn.
In Smith, Oklahoma Supreme Court concluded that for standing purposes, plaintiff is unable,
outside the Oklahoma Trust Act and during the life of SAS, to contest “the creation and execution of
the Trust, POA, and Will.” Pursuant to plaintiffs allegations, at the times relevant to this appeal SAS is
still living, and, in Oklahoma, “A living person has no estate subject to probate and . .. there can be no
ves ted right of inheritance in the estate of a living person. ” Randall v. Travelers Cas. & Sur. Co., 2006
OK 65, 2,145 P.3d 1048. Mr. Brown's relief sounded in tort, not in contesting ALB irrevocable trust.
7

In Cole v. Josey, 2019 OK 39. Cole involved an auto incident and Cole's attorney failure to
serve summons and petition on Josey. Cole's attorney dismissed and refiled within one year, however,
Cole's attorney once again refused to serve process on Josey. Oklahoma Supreme Court sustained the
dismissal for failure to serve summons and petition within 181-days and deemed dismissed with
prejudice for lacked personal and subject matter jurisdiction over complaint after failure to serve in one
year and one day.
Mr. Brown did not suffer an injury in fact that he could allege was concrete or real. Mr. Brown
simply filed a frivolous claim that ALB suffered Alzheimer's disease and dementia and she could not
manage her “financial affairs” without any proof. Noteworthy, ALB estate assets and financial affairs
were managed through Wealth Management Institutions Brokers and Managers, including accounts
held in Banks, and Credit Union for decades and was at the times leading up to Mr. Brown's
11/02/2017 frivolous petition.
ALB wrote her own checks, paid her own rent, paid storage bills, made contracts with hospitals
and rehab center, paid her own taxes, shopped for her personal items, i.e., clothes, hygiene items, food
items, made decisions about her food, made transfers from one financial institution to another. ALB
was self sufficient and very strong willed and no one could tell her what to do. Regarding her trust
contract, ALB told her notary that she created it and had read the trust agreement and understood it and
it was what she wanted and insisted on executing it appointing Lynn as her administrator.
On 10/18/2017 after being evaluated as entirely mentally competent, ALB appointed Lynn
administer of her estate. Lynn and six organizations were named in the Trust by ALB as beneficiaries.
Lynn has a legally protected interest in the estate as a beneficiary, and trustee and her interests
are real and concrete as required by Oklahoma Trust Act (the “Act”), 60 O.S. 2011, §§ 175.1-175.23.
Lynn's standing is conferred under title 60 O.S. 2011, § 175.23(C) which specifies who may bring such
an action: Actions hereunder may be brought by a Trustee, Beneficiary, or any person affected by the
8

administration ofthe trust estate. Lynn was affected by Others administrating the Trust. If an action is
predicated upon any act or obligation of any beneficiary, the “Beneficiarv shall be a necessary party
to the proceedings.
For these reasons, this Court should grant petitioner a rehearing based on Smith v. Lopp and
Cole v. Josey Oklahoma Supreme Court most recent statements of law.
This review should be governed by Oklahoma law with the same results as in Lopp and Josey.

REASONS FOR GRANTING REHEARIN. REHEARING ENBANC. AND ANSWERS
Under Oklahoma law, service of summons and petition on defendant's is a jurisdictional
prerequisite under 12 O.S. 2014, § 2004(1), and 12 O.S. § 2012(G). Mr. Brown's failure to serve
summons and petition on Lynn after passage of three (3) years' of filing his petition divested probate
court jurisdiction. Petition has no other adequate remedy at law. Aging Oklahoman's are at a serious
risk of being subjected to same or similar abuses by the probate court and these respondents.
Petitioner's injury-in-fact is actual, concrete, and imminent. Respondents cavalier disrespect for the
rule of law judicial violations will continue to tarnish the reputation ofthe court, attorneys, and jurist.
In Calhoon v. Oakes, 2016 OK CIV APP 61, Oklahoma Supreme Court defined the word
“contest” as “any legal proceedings designed to result in the thwarting of the testators wishes....
There is no escaping the fact that Mr. Brown contested ALB's estate plans, legal, and mental
competency in violation of the in terrorem clause of her irrevocable trust. ALB's trust is an expressed or
directed trust that is irrevocable by its terms and conditions and it pointed out directly and expressly the
property, persons, and purpose of the trust. Perry on Trusts, Vol. 1, § 24. Rehearing should be granted.
DISTRICT COURT DISMISSED LYNN'S DEFAMATION COMPLAINT AND CIVIL RICO
COMPLAINT WITHOUT PRIOR NOTICE WITHIN HOURS AFTER THE COURT OPENED
ITS DOORS FOR BUSINESS
On Friday, June 21, 2019 at 4:15 pm, petitioner timely filed: (1) Civil RICO complaint; (2)
Civil Defamation complaint (“Complaints”). Monday morning June 24 and 25, 2019, the U.S. District
9

Court (“District Court”) dismissed the defamation and civil RICO complaints under Rule 12(b)(1) and
12(b)(6) in less than one hours of the district court opening for business. The Magistrate Judge was not
appointed to give recommendation under 28 U.S.C. § 636. Magistrate Judge recommendation was
avoided by Judge Eagan. Lynn was denied Due Process, Equal Protection of Law, and recommendation
by magistrate to amend Complaints or give notice of intent to dismiss or show cause before dismissals.
On June 25, 2019. June 26, 2019 defendants filed an Application For Eight Millions Dollars
Litigation Funds to “defend themselves” against Lynn in federal court because Lynn sought to
prosecute her claims for “tortuous interference with expected inheritance gift, ” and racketeering
claims against these defendants/respondents. Defendant Judge Kurt G. Glassco while having a major
conflict of interest granted defendants application in full.
The district court dismissals triggered the statute of limitations and without any discussions of
the prejudice and manifested harm that would permanently bar Lynn's ability to timely re-file because
the statute of limitations was running regardless being dismissed without prejudice, it did not cure the
consequences of the statute running against Lynn.
The District Court sua sponte dismissed the Complaints and closed the case. The court did not
give Lynn any advanced notice that it would be dismissing the case. This failure was contrary to the
requirements of Rule 4(m), which states that dismissal is appropriate only “after notice to the
plaintiff ” Fed. R. Civ. P. 4(m) (emphasis added).
RESPONDENTS ADMISSION TO THIS COURT THEY FAILED TO COMPLY WITH
OKLAHOMA PLEADING CODE 12 O. S. § 2014, 2004(1) IS DISPOSITIVE ON THE ISSUE
OF DEFECTIVE SERVICE OF PROCESS ON LYNN
Jurisdiction of the court is invoked by service of summons and petition on interested parties or
their privies, or, the party voluntarily appears, or waives the jurisdiction question. Here, Lynn did not
voluntarily appear and did not waive jurisdiction. Jurisdictional defect attached.
Lynn was ALB' guardian, caregiver, home health provider, personal assistance in her health
10

care, business endeavors, and housing for over 8.7 years. ALB did not have children nor any relatives
that she wanted to care for her. During the 8.7 years ALB begin to hold Lynn out as her grand daughter
before others and that ALB appointed Lynn as her guardian. See, Affidavits In Petitioner Appendix To
Petition For Writ of Certiorari filed on June 29, 2020: (1) App. 110-111 Affidavit of Joanne Lee
Gilmore; (2) Affidavit of Tulsa County Sheriffs Deputy Reginald Cathey App. 112; (3) Affidavit of
Maggie Arrondondo-App. 113-114, and App. 115-117.
As a result of faithfully caring for, and loving ALB over the years, ALB showed her gratitude
and appreciation by appointing Lynn over her entire estate and gifted Lynn her entire estate and bequest
six organizations certain equal gift amounts from her estate trust “

” being mentally evaluated for

mental competency by Professor Kelly A. James, Ph.D.
EVENTS LEADING UP TO EXTRINSIC FRAUD ON THE PROBATE COURT, CIVIL
THEFT. AND INTRINSIC FRAUD ON ROSEMARY ANN LYNN
At no time prior to November 2, 2017 did Mr. Brown allege ALB suffered any form of mental
illness; ALB had never been adjudged by a competent court of jurisdiction to be mentally or legally
incompetent to attend to her affairs. Only after August 14, 2017 when Mr. Brown and his attorney
Theodore “Ted” Riseling (Riseling) tried to persuade ALB to act as Mr. Brown's attorney-in-fact,
beneficiary, and trustee of his estate plans in exchange for her making Mr. Brown her administrator
over her personal estate. ALB refused and wanted nothing to do with Mr. Riseling and Mr. Brown.
Mr. Brown was estopped from contesting the trust due to the Trust (“Trust Contract”) having an
In Terrorem Clause prohibiting Mr. Brown et al from contesting the validity or legality of ALB's
intention, competency, and Lynn's appointment, including divesting [a]ny contestant's standing to seek
to intervene in the estate plans through the court's, and if so done, forfeits any benefits therein. See
App. 83, The Audrey Louise Brown Irrevocable Spend Thrift Family Trust. Page 84 of the Trust,
Article III, Audrey L. (Louise) Brown Signature Including Competency Report Demonstrating Audrey
11

Louise Brown Ability To Execute This Trust, subparagraph 2, states: Any family member of Audrey
Louise Brown, attorney for any family member of Audrey Louise Brown, accountant, and court of any
jurisdiction is hereby forever barred making any form of alteration and challenge in any respect to this
Irrevocable Spendthrift Trust; any challenge thereto forever bar said person and or person's from ever
obtaining benefits from this Trust and its schedules....
As a direct result of Mr. Brown's inability to contest ALB's estate plans, Gill turned to Trust
Company of Oklahoma (TCO) whom he and the respondent's had extensive dealing with to get them
to falsely testify and financial records against ALB so that Mr. Brown could seized control over the
irrevocable spend thrift trust assets “indirectly” “revert” the assets and place them into a receiving
account held by Trust Company of Oklahoma ("TCO”); AND deny any interest in ALB's estate and get
Schutz's to act in some capacity to fraudulently convey the assets to his disinherited children without
exposing his FRAUDULENT intentions to the court.
Mr. Gill et al knew Lynn was the proper party to service but was dead set on completing his
“Scheme” to “fraudulent remove Lynn and replace her with Mr. Brown's children by dropping his
claims. ” State law controls this case as to both substantive and procedural rights of the parties, Erie R.
Co. v. Tompkins, 304 U.S. 64, Fed. R. Civ. P„ Rule 69(a), 81 (b), 28 U.S.C. Following § 723(c). Smith
v. Lopp should be dispositive here. Lynn seeks this Court to vacated and set aside all judgment orders in
Case Nos. PG-2017-800, PT-2018-020, and PT-2020-177, because the probate court lacked personal
and subject matter jurisdiction over Mr. Brown's petition and lacked jurisdiction over Lynn.
CONCLUSION
Respondents admission that they failed to serve petitioner with summons and petition after
petitioner put them on notice repeatedly should end the inquiry, Smith v. Lopp-, that Mr. Brown et al
failed to comply with their duty under Oklahoma statutes, 12 O.S. § 2004(1). That failure divested the
probate court of jurisdiction, thus any and all orders are void Ab Initio.
12

In Carney, Governor Of Delaware v. Adams, 922 F.3d 166,

U.S.___, (decided December

10, 2020 this court held that Adams, an attorney challenged the majority provision violated his First
Amendment rights and that he waited to late to seek appointment as a judge. On appeal, the 3rd Cir.
Ruled Adams did have the legal right, or standing, to challenge certain sections of Article IV, Section 3.
On Certiorari, this Court vacated the 3rd Circuit's decision granted certiorari and held Adams lacked
standing because he failed to show an injury in fact.
This Court's most recent opinion regarding standing states that for standing the party must show
“personal,” “concrete,” and “imminent” injury necessary for Article III standing. That two aspects of
standing doctrine are relevant here. First, standing requires an “ “injury in fact”” that must be “concrete
and particularized, as well as “’’actual or imminent.

95 >5

Lujan v. Defenders of Wildlife, 504 U.S. 555,

560. Second, a grievance (complaint) that amounts to nothing more than an abstract and generalized
harm to a citizen's interest in the proper application of the law does not count as an “injury in fact.
Akin to Adams and Smith cases, Mr. Brown has failed to show the necessary “injury in fact” to
establish that he will suffer a concrete, particularized, and imminent injury beyond a generalized
complaint for control over ALB and her estate and estate plans. Under the law of the case, Mr. Brown
was not successful contesting ALB's estate plans she “created and executed outside the Oklahoma
Trust Act. Id. Mr. Brown's bare-boned petition failed to rise to the level of standing required under
Oklahoma law and this Court's decision in Adams.
Petitioner's RICO Complaint meets the requirements of Rules 8 and 9 and should not have been
dismissed without opportunity to cure any defect, the court abused its discretion. Petitioner's
Defamation Complaint met the standards for an initial complaint and should not have been dismissed
under Rules 12(b)(6) or 12(b)(1). The Court abused its discretion.
For the reasons set forth in current law of the case of the State of Oklahoma highest court's in
Smith and Cole cases should be dispositive. Petition For Writ of Certiorari should be granted.
13

This Honorable Court should grant Lynn's Petition For Rehearing, Rehearings Enbanc, and
enter and Order Answering the issues raised and reinstate her Petition For Writ of Certiorari,
DATED this 01 day of January 2021.
Respectfully submitted,

mm-. e

Rosemary/A:
nn-Pro Se
P.O. Box 701432
Tulsa, Oklahoma's 74170-1432
Tele: (1+) 405-561-3953
CERTIFIC ATE OF MATT TNG/PROOF OF SERVICE
I hereby certify that on January 01, 2021,1 mailed the foregoing document-Petition For
Rehearing, Rehearing Enbanc, and Answer to Issues Raised with proper address and proper per-paid
postage thereon, and placed the same in the United States Postal Service for delivery to this Court and
the below named attorneys for their respective “Clients. ”
(1) United States Supreme Court, 1 First St. NE, Washington, DC 20543;
(2) Randall Allen Gill-per Andrew G. Brown III, and Lesa Creveling, et al.,
2512 E. 21st St., Ste. 100, Tulsa, Ok 74114;
(3) Robyn Owens-per Mary Bagwell-Hendershott & Susan Boyd et al., 234
W. 13th. St. Tulsa, Ok 74119; and,
(4) Kimberly B. Schutz et al., 7134 S. Yale Ave. Ste. 300, Tulsa, Ok_74136
2
Rosemary AmLD rni 'ro Se
P.O. Box 7(W432
Tulsa, Oklahoma's 74170-1432
Tele: (1+) 405-561-3953

14

t

/

Case No. 20-337

6TTIRY TRIAL REQUESTED)

IN THE
UNITED STATES SUPREME COURT

ROSEMARY ANN LYNN,
Petitioner,
Against,

ANDREW GEORGE BROWN III, ET AL.,
(U.S. Dist. Ct. Case Nos. 19-CV-331-CVE-JFJ and 19-CV-332-CVE-JFJ, Respectively.)
(USCA10 Cir. Nos. 19-2062 and 19-5063 Respectively.)
Respondents.

PETITIONER'S DECLARATION THAT REMEDY IS SOUGHT OUT OF GOOD FAITH TO

Petitioner Rosemary Ann Lynn, files these and other documents in this Court without any
intentions of causing delay, or annoyances. The filings are objective seeking proper relief thats
inadequate and or denied in lower tribunals due to the deluded representations and racketeering
activities conducted by respondents. Upon review, it will become clear, that Lynn has a great likelihood
of success if this case is reviewed. Jurisdictional defects plagues this case, yet the respondents hide
from discovery and attempt to get this court to seal discoverable material from Lynn to prevent her
advancing the truth, truths that will demonstrate and prove her claims.
On the pains of perjury, I Rosemary Ann Lynn, declare that I have never and will never harass,
annoy, delay, or cause disruption of the court by filing frivolous instruments. Based on the sparse
records Lynn has been able to acquire, her belief, and facts known to her are the basis of her seeking
relief that is over due to her.
Lynn has raise jurisdictional issues that may be raised at any time, including at the Supreme
1

y

Court, including tortuous interference with expected gift and racketeering activities by respondents.
A

ynn-Pro se & Declarant
Rosemary/
P.O. BOXV701432
Tulsa, Oklahoma 74170
CERTIFICATE OF MAILING
I hereby certify that on 01 day of December, 2020,1 mailed the foregoing document-Declaration with
proper address and proper per-paid postage thereon, and placed the same in the United States Postal
Service for delivery to this Court and the below named attorneys for their respective “Clients. ”
(1) United States Supreme Court, 1 First St. NE, Washington, DC 20543;
(2) Randall Allen Gill-per Andrew G. Brown III, and Lisa Creveling, et al., 2512 E. 21sl St., Ste..
100, Tulsa, Ok 74114;
(3) Robyn Owens-per Mary Bagwell-Hendershott & Susan Boyd et al., 234 W. 13th. St. Tulsa,
Ok 74119; and,
(4) Kimberly B. Schutz et al., 7134 S. Yale Ave. Ste. 300, Tulsa, Ok 74136

uL

Rosemary Mnn Lynn-Pro Se
P.O. Box 701432
Tulsa, Oklahoma's 74170-1432

2

Additional material
from this filing is
available in the
Clerk's Office.

